<html>
<title> - EXAMINING MISCONDUCT AND INTIMIDATION OF SCIENTISTS BY SENIOR DOE OFFICIALS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                 EXAMINING MISCONDUCT AND INTIMIDATION
                 OF SCIENTISTS BY SENIOR DOE OFFICIALS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON OVERSIGHT &
                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 21, 2016

                               __________

                           Serial No. 114-94

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                             ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 00-000 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   

       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
WARREN DAVIDSON, Ohio
                                 ------                                

                       Subcommittee on Oversight

                 HON. BARRY LOUDERMILK, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DON BEYER, Virginia
    Wisconsin                        ALAN GRAYSON, Florida
BILL POSEY, Florida                  ZOE LOFGREN, California
THOMAS MASSIE, Kentucky              EDDIE BERNICE JOHNSON, Texas
DARIN LaHOOD, Illinois
WARREN DAVIDSON, Ohio
LAMAR S. SMITH, Texas
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MO BROOKS, Alabama                   MARC A. VEASEY, Texas
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
STEPHAN KNIGHT, California           ED PERLMUTTER, Colorado
BARBARA COMSTOCK, Virginia           EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas

                            C O N T E N T S

                           September 21, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barry Loudermilk, Chairman, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Don Beyer, Ranking Member, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    14

                               Witnesses:

Dr. Sharlene Weatherwax, Associate Director, Biological and 
  Environmental Research, U.S. Department of Energy
    Oral Statement...............................................    16
    Written Statement............................................    19

Dr. Noelle Metting, Radiation Biologist, U.S. Department of 
  Energy
    Oral Statement...............................................    26
    Written Statement............................................    28

Discussion.......................................................    75


             Appendix I: Additional Material for the Record

Statement submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   106

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   109

Document Submitted by Representative Zoe Lofgren, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   110

Documents submitted by Representative Randy Hultgren, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   118

Document submitted by Representative Don S.Beyer, Ranking Member, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   127

Report submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   139

Document submitted by Representative Randy Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   178


                 EXAMINING MISCONDUCT AND INTIMIDATION



                 OF SCIENTISTS BY SENIOR DOE OFFICIALS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 21, 2016

                  House of Representatives,
              Subcommittee on Oversight and
                    Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:08 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Barry Loudermilk 
[Chairman of the Subcommittee on Oversight] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Loudermilk. The Subcommittee on Oversight and 
Energy will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time.
    Welcome to today's hearing entitled ``Examining Misconduct 
and Intimidation of Scientists by Senior DOE Officials.'' I now 
recognize myself for five minutes for an opening statement.
    Good morning, and welcome to today's Oversight and Energy 
Subcommittee hearing examining the intimidation of scientists 
at the Department of Energy.
    Congressional oversight and authority to access information 
is a constitutional authority granted to Congress. Without open 
dialogue with the federal agencies, Congress cannot gather the 
information needed to effectively legislate. Today, we will 
examine a clear case of this committee's request for 
information directly related to the legislative process and the 
executive branch's actions to block Congressional access to 
federally funded research.
    Unfortunately, what we will learn at today's hearing is not 
an isolated incident. It fits a pattern of intentional 
misinformation from the Obama Administration officials, ranging 
from FDIC to NIST to EPA, and now the Department of Energy. 
While today's hearing is disturbing in many ways, I am most 
concerned with this incident because it appears that unelected 
DOE officials sought retribution against a DOE scientist simply 
for respecting the constitutional authority of Congress in 
order to advance political priorities.
    The Committee on Science, Space, and Technology is the 
authorizing committee for scientific research and development. 
In order to fully inform the legislative process, committee 
staff must be able to engage in open discussions with federal 
researchers to fully understand the scope and value of existing 
programs. In fact, this open dialogue is protected in each 
annual appropriations act we pass in the House.
    Federal law prohibits department and agency officials from 
stifling communications with Congress and penalizes those who 
seek to silence federal employees by prohibiting the payment of 
their salaries by the U.S. Treasury. I would request unanimous 
consent that this provision of law be included in the record.
    [The appears in Appendix I]
    Chairman Loudermilk. Transparency from executive agencies 
is necessary to ensure Congress' ability to carry out our 
oversight and legislative responsibilities effectively. In this 
case, communications with DOE are central to the Committee's 
oversight of accountable use of taxpayer funds in scientific 
research. Sadly, it appears that politics has disrupted this 
important dialogue between Congress and the Department of 
Energy, and derailed important scientific research in the 
process.
    When DOE decided it wanted to redirect funds to support 
President Obama's Climate Action Plan, the Department 
sacrificed the Low Dose Radiation Research Program to achieve 
this goal. This program is the federal government's only 
program to investigate whether the types of radiation received 
by Americans every day are dangerous. This research is vital to 
understanding radiation doses to patients undergoing CT scans 
or PET scans, or the hazards of radiation to workers in the 
nuclear industry.
    The Low Dose Program is also crucial to understanding the 
effects of a dirty bomb or nuclear accident on potential 
victims, so it is a key research program to protecting our 
homeland. This is clearly science in the national interest.
    But when this committee took steps to specifically 
authorize this important research, DOE pushed back. When Dr. 
Noelle Metting, the DOE scientist in charge of this program, 
provided honest input on the merits of the Low Dose Program, 
she was subsequently fired by DOE senior management, all for 
the ``crime'' of working to conduct what is clearly important 
research and explaining that research to Congressional staff.
    I want to make absolutely clear that Congress is not 
directing the technical experts on how to specifically carry 
out research. Instead, Congress decides the broad priorities 
and policy goals, and makes sure that taxpayer funds are spent 
responsibly on research with the greatest potential, while DOE 
carries out research at Congressional direction. It is 
disappointing that DOE's senior management would attempt to 
usurp this process and silence a federal researcher to advance 
political goals in violation of appropriations laws.
    This Administration's bullying and intimidation must stop. 
I hope at today's hearing we will get to the bottom of the 
intimidation, deception, and misinformation conducted by the 
DOE officials for political priorities.
    [The prepared statement of Chairman Loudermilk follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairman Loudermilk. I now recognize the Ranking Member, 
the gentleman from Virginia, for an opening statement.
    Mr. Beyer. Thank you, Mr. Chairman, very much. And later 
on, I'm sure we'll have a chance to distinguish between 
political priorities and scientific priorities because they are 
different.
    I want to thank the Chairmen Loudermilk and Weber for 
today's hearing and thank you, Doctors, for testifying.
    In February this year, the Science Committee began 
investigating the Department of Energy's attempt to stop 
funding the Low Dose Radiation Research Program and the related 
personnel action that resulted in the removal of longtime 
Program Manager Dr. Noelle Metting.
    As a businessman, as a former Ambassador, as someone who's 
been involved in transition of federal agencies and for 
presidential elections, I think I know what good and bad 
management looks like. I also represent many federal employees, 
and they often call my office when they see evidence of 
mismanagement or are treated poorly or unfairly themselves.
    From everything I know, it seems to me that in this 
instance the Department of Energy was a bit overzealous in the 
removal of Dr. Metting and badly mishandled this case. This all 
stems from a briefing October of 2014 requested by a majority 
staff member, and I'd like to note that the Democratic 
committee staff members were not present, nor were they invited 
to the meetings so we can't attest firsthand to what actually 
happened. We can only rely on the accounts given during the 
formal transcribed interviews with only two of the four DOE 
officials that were present.
    On that note, I'm disappointed that yet another 
investigation by the committee's majority appears incomplete. 
To my knowledge, the committee's majority never formally 
interviewed Dr. Metting or the other DOE staff member who was 
present during the October incident. And, in addition, Dr. 
Weatherwax, who is also testifying today, was not even present 
for the meeting or post-meeting discussion that resulted in the 
removal of Dr. Metting. So good luck today, Dr. Weatherwax.
    While I don't believe that Dr. Metting's actions at the 
briefing should be characterized as that of a whistleblower, I 
do strongly support the right of federal employees to petition 
their government and speak openly about their work without fear 
of retaliation. As a federal employee, Dr. Metting should have 
felt unbridled in her answers to and interactions with 
Congressional staff.
    I certainly know as a sometime boss and manager I always 
want to hear all sides of an issue, yes and no, to make good 
decisions. I would strongly recommend that the Department take 
a closer look at how they handle situations like the one we're 
talking about today.
    On that point, the scientific integrity policy that the 
Department released in 2012 could certainly use a second look 
or potentially an update. The policy leaves gray areas that can 
create confusion and misunderstanding, and relative to other 
executive agency branches, DOE's scientific integrity policy is 
not nearly as robust. Agencies like the Department of Interior, 
NASA, NOAA have led the way in this effort. And given the 
quality and the quantity of scientific research at DOE, I'd 
really expect more from DOE leadership on this front.
    I also look forward to learning more about the future of 
low dose radiation research today. I'd urge the Department to 
be more clear with Congress about their intentions and 
rationale for changes in research priorities to make sure 
they're based on science and not, as our Chair suggested, on 
politics.
    There's been a general lack of communication from DOE on 
these particular research activities involving low dose 
radiation research. I hope we can avoid similar occurrences in 
the future. The clearer the communication early on, the better 
off.
    Before I conclude, I'd also like to add that I find this 
halfhearted investigation especially ironic, given that the 
committee's majority is engaged in clear intimidation of 
government scientists that are conducting client change 
research at NOAA, including a issuing a subpoena to NOAA 
Administrator and former astronaut Dr. Kathryn Sullivan for 
emails of the scientists all because the majority disagreed 
with the results of a twice peer-reviewed scientific study.
    And I'd point out that I don't believe the majority has 
ever produced a shred of evidence that would have justified the 
subpoena, although they made numerous unsubstantiated 
allegations of scientific misconduct by NOAA scientists.
    I think if we're going to talk about chilling effects on 
scientists, we need to look across the complete board.
    I think we can all agree that all scientists--government, 
academia, private sector--should be free of undue influence, be 
it politics or profit. Our policy decisions should be guided by 
our research by our world-class scientists. When they speak 
loudly in unison, we should listen. I don't think that's always 
been the case in this Congress or on this committee.
    Lastly, this incident highlights the necessity of basic due 
process requirements, appeals, and federal employee 
protections, as well as the right of federal employees to have 
the right to union representation. If my friends on the 
majority are sincere about their concern for federal employees, 
and I hope they are, I'd encourage them to keep this hearing in 
mind next time Congress considers legislation intended to erode 
due process and collective bargaining rights for federal 
employees.
     My dad spent a year in Eniwetok 1956, '57, as provost 
marshal when they were testing nuclear weapons, so I'm very 
interested in what the impact of low-dose radiation is because 
he's only 92-1/2 right now.
    So, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Beyer follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairman Loudermilk. Thank you, Mr. Beyer. And for the 
record, I agree with you. It is very important that we have the 
true testimony from the others that were in that meeting. And 
for the record, this committee did invite Dr. Julie Carruthers 
and Dr. Todd Anderson, who were present during the briefing 
October 16, 2014, but the Department of Energy chose not to 
provide those witnesses for today's hearing.
    At this point I'd like to recognize the Chairman of the 
Subcommittee on Energy, Mr. Weber, for his opening statement.
    Mr. Weber. Thank you, Mr. Chairman. I appreciate it.
    And good morning. As Chairman of the Subcommittee on 
Energy, I have spent this Congress focusing on basic research 
that can benefit our nation by enabling technology 
breakthroughs.
    Throughout its history, the Department of Energy (DOE) has 
conducted research in support of nuclear energy and nuclear 
weapons complex. It has also explored the impact of radiation 
so that our nation's researchers, industry, and military can 
safely handle nuclear material--I bet you're all about that, 
Dr. Metting--also maintain the nation's nuclear weapons 
program, and dispose of that same nuclear waste. In my opinion 
not only good energy policy but good national security policy 
that the Chairman alluded to. This use-inspired basic research 
leads to scientific discoveries and long-term benefits for the 
energy industry and for our national defense.
    Today, we will examine the Department's decision to 
terminate the Low Dose Radiation Research Program, and may I 
add the only federal program currently conducting research in 
this area.
    This program does three things. It provides research that 
can inform authorities setting nuclear safety standards for the 
public. Low dose research can also provide, number two, new 
data to enable federal emergency response agencies to more 
accurately set evacuation zones from radiological incidents. 
And number three, it provides research to enable practicing 
physicians to decide when and how to use diagnostics to detect 
cancer in patients. The research conducted in the Low Dose 
Program can also facilitate, I guess a fourth thing, medical 
research efforts to even combat cancer. Other than that, the 
research is really not useful.
    I'm being facetious obviously. When DOE chose to close down 
the Low Dose Program, this committee began to examine this 
research program. Why was that? Committee staff contacted DOE 
specifically to hear from technical experts about the broad 
impact of this basic research program and the potential value 
this research could yield for domestic energy, medical 
discovery, and national security to put it in a nutshell. And 
as this committee took steps to authorize the Low Dose Program 
through the legislative process, we relied on these open 
conversations with DOE researchers to draft legislation that 
would prioritize this important research and responsibly invest 
American tax dollars.
    These kinds of frank discussions between researchers and 
Congressional staff are absolutely vital in this legislative 
process. Members of Congress must be able to trust that the 
information they receive from DOE is nonpartisan and, quite 
frankly, is delivered without political bias. Congress must get 
access to these facts. We have to make good policy. There's no 
way around that.
    Unfortunately, the Department violated Congressional trust 
by attempting to censor information provided to committee 
staff. And what's worse, a DOE scientist was punished for 
speaking to Congress. That is simply unacceptable.
    Congress must be able to expect a high standard of 
accountability and honesty from federal agencies to effectively 
legislate and fulfill our constitutional duty to the public. 
When scientists get fired for speaking honestly about their 
work, it is clear that politics are negatively impacting the 
work of Congress and stifling public dialogue, not to mention 
stifling research in those key areas that I alluded to.
    I want to thank our witnesses for testifying today, 
particularly Dr. Metting for being willing to share her 
unfortunate experience with the committee. I hope that by 
exposing DOE's misconduct in this case, we can prevent this 
kind of inappropriate action in the future and preserve 
scientific integrity and transparency at the Department. 
American taxpayers deserve nothing less.
    Mr. Chairman, I yield back.
    [The prepared statement of Mr. Weber follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Loudermilk. I thank the gentleman from Texas.
    And now, I'd like to introduce our witnesses. Our first 
witness today is Dr. Sharlene Weatherwax, Associate Director 
for Biological Environmental Research at the U.S. Department of 
Energy. She has previously served in a number of different 
positions within the DOE, including as the Division Director 
and Program Manager for the Biological System Science Division 
of the Office of Biological and Environmental Research, and 
Program Manager in the Office of Basic Energy Sciences.
    Dr. Weatherwax received her bachelor of science in 
biochemistry from the University of California at Los Angeles 
and her Ph.D. in biochemistry from the University of California 
at Berkeley.
    Our final witness today is Dr. Noelle Metting, Radiation 
Biologist at the U.S. Department of Energy's Office of 
Environment, Health, Safety, and Security within the Office of 
Public Radiation Protection. Dr. Metting previously worked in 
the DOE's Office of Science, Office of Biological and 
Environmental Research where she managed the DOE's Low Dose 
Radiation Program. In addition, she worked for 20 years as a 
laboratory research scientist at Pacific Northwest National 
Laboratory.
    Dr. Metting received her master's degree in radiological 
sciences from the University of Washington and her doctor of 
science in cancer biology from Harvard.
    I now recognize Dr. Weatherwax for five minutes present her 
testimony.

             TESTIMONY OF DR. SHARLENE WEATHERWAX,

                      ASSOCIATE DIRECTOR,

             BIOLOGICAL AND ENVIRONMENTAL RESEARCH,

                   U.S. DEPARTMENT OF ENERGY

    Dr. Weatherwax. Mr. Chairman, Ranking Members, and Members 
of the Subcommittee, thank you for the opportunity to appear 
before you today to discuss the Department of Energy's Low Dose 
Radiation Research Program and the decision to end the program 
in fiscal year 2016.
    My name is Dr. Sharlene Weatherwax, and I'm the Associate 
Director for Science and Biological and Environmental Research, 
or BER, in DOE's Office of Science. I have earned my Ph.D. in 
biochemistry from the University of California at Berkeley, and 
I have research expertise in microbial enzymology and plant 
molecular biology.
    I joined the Department of Energy in 2001 as a career 
federal employee and--first as a Program Manager for the Office 
of Basic Energy Sciences and then in BER. I rose to the Senior 
Executive Service position of Biological System Science 
Division Director in 2008 and became the Associate Director for 
BER in 2011. I am responsible for strategic program planning, 
budget formulation and execution, and coordination with other 
DOE program offices and other federal agencies.
    BER supports fundamental research in scientific user 
facilities to support DOE's energy, environment, and basic 
research missions, drawing upon the scientific expertise of 
researchers at academic and industrial institutions and the DOE 
national labs.
    The BER Biological Systems Science Division supports a 
diverse portfolio of fundamental research and technology 
development, serving as the basis for the competent redesign of 
microbes and plants for sustainable biofuel production, 
improved carbon storage, and controlled biological 
transformation of materials such as nutrient and contaminants 
in the environment.
    There is a very competitive environment for funding within 
BER with exciting new scientific opportunities due to the 
rapidly changing nature of biological science. Since completion 
of the human genome sequence in 2003, the genome sequencing and 
analysis tools at the DOE's Joint Genome Institute have enabled 
BER's Genomic Science Program to be at the forefront of 
developing the scientific basis for translating genetic parts 
list for plants and microorganisms into scientific knowledge 
about biological system functions.
    This research is exemplified in the Bioenergy Research 
Centers, which were started 2007. The centers continue to 
produce the innovative science needed to foster production of 
fuels and chemicals from renewable biomass and are working to 
translate these basic science results to practical outcomes for 
industry and society.
    BER is also at the forefront of deciphering the underlying 
principles of genomic expression in order to design new 
biological functions. With continued understanding of the 
genomic potential of plants and microbes comes the ability to 
manipulate and design new pathways into plants and microbes 
work. Biosystem design concepts are at the heart of the ongoing 
biotechnology revolution and key to maintaining international 
leadership.
    In addition to these major efforts in bioenergy-related 
research, BER has managed a basic research program in low-dose 
radiation research since 1998. Over the past 18 years, the 
program has provided new type technological advances and 
fundamental scientific understanding of the mechanisms cells 
use to sense, repair, and adapt the impacts of low-dose 
radiation. Research investigations have included a number of 
critical biological phenomena induced by low-dose exposure, 
including adaptive response, bystander effects, genomic 
instability, and genetic susceptibility.
    The program was not intended to address regulatory policy 
but rather to advance the fundamental science of radiation 
impacts on biological processes. To date there are no studies 
that have been able to establish with sufficient certainty a 
threshold level of radiation below which the risk for cancer is 
zero despite decades of research in this area. Any changes to 
the current protection standards would require strong and 
compelling evidence that a higher amount of radiation exposure 
is safe.
    The low-dose--the DOE Low Dose Radiation Research Program 
is ending in fiscal year 2016 as BER's biology portfolio 
continues to shift more towards bioenergy, biodesign, and 
environmental microbiology research missions. Funding levels 
have been steadily decreasing since 2012 with $1 million 
appropriated to complete the program in fiscal year 2016.
    The total amount of appropriated funding that the DOE 
Office of Science has devoted to the Low Dose Research from its 
inception is over a quarter of $1 billion, and the program 
outcomes and data are available to the community and other 
interested agencies through peer-reviewed scientific 
publications.
    Biology is rapidly transforming to a more quantitative and 
predictive science, and the BER biology portfolio continues to 
extend its genome science efforts to plants and microbes to 
develop the fundamental scientific understanding needed for 
solutions to energy challenges of the future.
    Thank you for inviting me to speak about the Low Dose 
Radiation Research Program. I look forward to answering the 
committee's questions.
    [The prepared statement of Dr. Weatherwax follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Loudermilk. I now recognize Dr. Metting for five 
minutes.

                TESTIMONY OF DR. NOELLE METTING,

                      RADIATION BIOLOGIST,

                   U.S. DEPARTMENT OF ENERGY

    Dr. Metting. Good morning, Mr. Chairman, Ranking Members, 
and other Members of the Subcommittees on Energy and Oversight. 
Thank you for this opportunity to testify at the hearing this 
morning.
    I'm a scientist, a radiation biologist currently working 
for the Department of Energy Office of Environment, Health, 
Safety, and Security. I'm actually on detail from DOE's Office 
of Science and BER where from the year 2000 until December of 
2014 I had, among other duties, been tasked with managing DOE's 
Low Dose Radiation Research Program.
    Over the previous 20 years, I was a laboratory research 
scientist, an experimentalist working in Pacific West--
Northwest National Lab. I have a master's of science from the 
University of Washington and a doctor of science from Harvard 
University.
    In my remarks today I will share my personal experience of 
being fired by DOE and suffering long months of unemployment 
that occurred as a direct outcome of my participation in a 
briefing for Congressional staff.
    In a nutshell, the circumstances surrounding this 
intimidation and retaliation are these: Congressional staffers 
requested an overview of the Low Dose Program so my immediate 
supervisor, Dr. Todd Anderson, asked me to prepare a PowerPoint 
presentation. It was duly reviewed, amended, and finalized.
    In a pre-briefing meeting attended by myself and Drs. 
Anderson, Carruthers, and Huerta, it was decided that for the 
Congressional staff briefing I would present my slides and 
handouts and respond only to the scientific questions, while 
Drs. Anderson and Carruthers would handle the budget and policy 
issues.
    During the Congressional briefing the following day on 
October 16, I presented the agreed-upon material and answered 
accurately the many scientific missions directed to me by House 
staff member Dr. Aaron Weston and Senate fellow Dr. Ron 
Faibish. The staffers were very knowledgeable in the science, 
their questions thorough and comprehensive, showing real 
interest in the subject. In fact, this deep knowledge was 
unexpected by all of us.
    After the briefing ended and the Hill staff had left, Dr. 
Carruthers accused me of advocating and lobbying for the 
program and of being too enthusiastic about research results. I 
was shocked. During the briefing, I had answered all the 
questions based on my knowledge as a scientific subject matter 
expert, all the questions based on--with no intention of 
lobbying for the program itself. My only motivation was to 
fully and truthfully inform Congress about the state of DOE's 
Low Dose program research.
    Drs. Carruthers and Anderson repeatedly accused me of 
lobbying. Confronted with this unwarranted and unjustified 
onslaught, I reminded them that they had already--that they 
already knew I disagreed with their plan to end support of the 
program. I also mentioned my concern as to how SC management 
had handled a specific Congressional directive to designate an 
extra $16 million to the fiscal year 2012 budget for Fukushima-
related low-dose research.
    Thus began an unjust and painful saga of unrelenting 
intimidation. In just over one uncomfortable month--week after 
the briefing--one uncomfortable week Dr. Anderson removed me as 
Manager of the Low Dose Program and detailed me to unclassified 
duties. My management obviously did not want me answering any 
more questions, scientific or--the questions about the Low Dose 
Program.
    A month later on December 4, 2014, a notice of proposed 
removal was issued, charging me with insubordinate defiance of 
authority and inappropriate workplace communication. I was put 
immediately on administrative leave, subsequently denied access 
to the contents of my former office. There followed a very long 
period of stressful activity at my home, alone during the usual 
workweek, cut off from my peers, trying to build a defense to 
the charges, guided by my NTEU representative.
    In early January, I filed a disclosure and complaint with 
the Office of Special Counsel regarding the $16 million budget 
directive, also sending information to DOE's Inspector General. 
Five months later, a final decision of removal was issued by 
the deciding official Dr. Steven Binkley and effective May 16 
of 2015.
    I'm sorry I'm going over. Shall I continue?
    On the next business day, Dr. Sharlene Weatherwax, 
Associate Director of BER, was seen rolling a dumpster to my 
old office, and thus began or perhaps continued the removal of 
the contents, including irreplaceable hardcopy notes, files, 
and documents and some of my personal possessions. You may now 
appreciate that intimidation and retaliation in this case is 
somewhat self-evident.
    It's revealing that after an appeal to the Merit Systems 
Protection Board and just before the appeal hearing started, 
DOE reached settlement with me. I'm currently employed but feel 
there's continuing intimidation of scientists.
    To this day I've not been granted the right to inspect 
remaining materials from my old office or to retrieve missing 
personal items.
    I suggest it's unacceptable that scientists are put under 
pressure to espouse views that are not their own and that 
federal scientists are persecuted for presenting accurate 
information, professional opinion to those charged with 
providing funds for this research.
    Now, in my written testimony I have a lot of information, 
timeline, and information about the Low Dose Program.
    Thank you for inviting me to share this experience.
    [The prepared statement of Dr. Metting follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
   
    
    Chairman Loudermilk. And thank you, Dr. Metting. I now 
recognize myself for five minutes for questions.
    Dr. Metting, I appreciate your testimony. In your 
testimony, as well as your written testimony, I believe you 
stated that when you were confronted by the Department of 
Energy management that they accused you of lobbying on behalf 
of the program, is that correct?
    Dr. Metting. Yes.
    Chairman Loudermilk. Okay. Thank you.
    Dr. Weatherwax, was one of your goals for the October 16, 
2014, briefing with the Congressional staff to dissuade the 
Senate from offering a companion bill to the House bill?
    Dr. Weatherwax. Chairman Loudermilk, I had no explicit 
goals for the briefing other than to provide information that 
was requested at the briefing. The briefing--I did not 
personally attend the briefing.
    Chairman Loudermilk. So if the intention would have been to 
dissuade the Senate from introducing their own bill, then would 
you consider that a form of lobbying?
    Dr. Weatherwax. I am not aware of the official definition 
of lobbying, but since I had no intention of doing any of that 
activity, I can't really answer to it.
    Chairman Loudermilk. Well, someone in the DOE must know 
what the official definition of lobbying is since they accused 
Dr. Metting of doing the same.
    Could we bring up the slide, please?
    [Slide.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairman Loudermilk. Dr. Weatherwax, in this email from you 
to Todd Anderson to whom I understand--and according to Dr. 
Metting's testimony--was the one that you preferred to speak to 
the Congressional staff. In this email you directed Dr. 
Anderson to conduct the briefing so that he would dissuade the 
Senate from offering their own bill with regard to low-dose 
radiation research.
    Now, that seems contrary to what you just told me in 
answering that question. In fact, the email says, ``That's why 
you need to brief the Senate folks so they don't develop their 
own bill. These are technically different staffers than the 
ones who introduced the bill. Yes, when it was officially 
introduced, it had sponsors.''
    Can you explain the purpose of this email if it wasn't to 
lobby Congress to do something?
    Dr. Weatherwax. So in the body of the email the question 
arises around a House bill, so my understanding is that the 
briefing was designed to inform the staffers about the Low Dose 
Radiation Program in general. So my understanding is that 
scientific issues are presented by the Program Manager, but the 
responsibilities of the Division Director, who was Dr. 
Anderson, are to communicate the strategic direction and the 
portfolio balance that he has developed so----
    Chairman Loudermilk. Well, I appreciate that but that is 
not what the text of the email says. The text of the email 
says, ``That's why you need to brief the Senate folks so they 
don't develop their own bill.''
    Dr. Weatherwax. So since it's Dr. Anderson's responsibility 
to communicate what is in his portfolio and to convey the 
program priorities that he has balanced for all of the 
competing scientific opportunities, his job was to present that 
to House and Senate so that they can see how he arrived at his 
conclusions for presenting his particular portfolio.
    Chairman Loudermilk. Okay. I'd like to go to Dr. Metting 
now. And I think it's clear that--and I think that's why you're 
having a hard time answering the question is that this was 
indeed an intention of going and persuading Congress to do 
something, which is a practical definition of lobbying, which 
Dr. Metting was fired for doing. I think there's some hypocrisy 
here.
    Dr. Metting, is the narrative that Dr. Weatherwax 
instructed Dr. Anderson to lobby against H.R. 5544 consistent 
with your memory of how the briefing went?
    Dr. Metting. Actually, the briefing--it wasn't. It wasn't 
because I believe that my management--and Todd is my--Todd 
Anderson is my manager and with the help of Dr. Carruthers, I 
think they were trying to inform--they were trying to lobby 
against this bill itself. They were trying to--they told me 
to----
    Chairman Loudermilk. Okay. To make clear that you were 
directed to basically lobby against the Senate introducing 
their own bill? Are we clear? Or that was the intention?
    Dr. Metting. Actually, I don't think anything was mentioned 
to me about the Senate in any way. I was told that I would be 
doing the science and that's it, but I was told in the pre-
briefing that we are against this bill and we don't want this 
bill to pass.
    Chairman Loudermilk. So as you stated in your testimony 
that the result of you being released--or fired was that you 
honestly answered the questions by the staff, which you said 
you were impressed that they had the knowledge they had, and 
you were not lobbying to--or you--they felt you were lobbying 
to keep the program just because you were answering the 
questions honestly?
    Dr. Metting. Yes. Yes, Mr. Chairman. I was only answering 
the questions.
    Chairman Loudermilk. Dr. Weatherwax, Congress relies on 
briefings with federal agencies and in particular a scientist 
like Dr. Metting to provide candid technical expertise on 
matters. Would you agree with that?
    Dr. Weatherwax. Yes.
    Chairman Loudermilk. It also seems that when it came to a 
briefing on the Low Dose Radiation Research project you viewed 
this briefing not as an attempt to inform Congress with 
technical expertise but an attempt to prevent legislation. Is 
that accurate?
    Dr. Weatherwax. As I stated previously, our intent was to 
provide information about how we develop our budget priorities 
to balance the program portfolio that includes many broad 
elements of which the low-dose radiation research is one. So we 
were there to provide a full accounting of all of the science 
that's presented so that Congress can make its own 
determinations about how we come to our decisions.
    Chairman Loudermilk. Thank you. And I have exceeded my 
time. I apologize, members of the committee, but I'll extend 
that same latitude to the other members because I was not very 
well in managing my own time.
    I now recognize Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman.
    Over 40 years of managing employees, I've had the 
unfortunate responsibility of sometimes having to fire people. 
Rarely though do I fire people on the spot. It's usually--on 
the spot it tends to be because they just got into a fistfight 
with somebody or were caught lying outright to a customer.
    So, Dr. Metting, we've heard a lot about your firing. Is it 
your sense that you were removed because you were advocating 
for a program that you lead for more than ten years or were you 
removed because of ``insubordinate defiance of authority,'' 
that you were argumentative, that you called their actions 
idiotic? Was it basically because you disagreed with them on 
the science or because they saw you as unmanageable?
    Dr. Metting. I--at the time I thought that they were 
actually reacting to the $16 million question that I talked to 
them with after the briefing, but I also knew that they were 
very upset with me talking about the science in the briefing 
itself, which was a wonderful--actually a good opportunity to 
talk about the program and I was--that's why I was just very 
surprised when they were upset about that. That was not 
lobbying. That was talking to the science.
    Mr. Beyer. Okay. Thank you. Dr. Weatherwax, it's hard for 
us it--for any of us here to know what happened in that 
briefing after the fact. We have the transcripts and stuff, but 
I'm curious to know what you and others took at DOE to help 
mediate this and resolve the tensions between Dr. Metting and 
Dr. Anderson and other DOE employees.
    You know, it's a big step to take someone out of a career 
they've devoted a significant part of their life to. So did you 
seek mediation? Was there anything else that attempted to 
resolve the bad blood between Dr. Metting and the other folks 
at DOE?
    Dr. Weatherwax. So, Congressman Beyer, so the process works 
to actually defend the rights of the employee and also the 
interests of the Department. And in this case, the supervisor, 
Dr. Todd Anderson, submitted the proposal to remove Dr. 
Metting. So he issued the proposal. At that point, it was 
deemed that it had to go for human resources to actually advise 
on what the process--what the next steps would be, and so we 
followed the process at the Department, which is that the 
proposing official submits some kind of request and then the 
human resources and general counsel provide advice as to 
whether or not there are sufficient grounds to take any action, 
any kind of personnel action.
    And so in this case it's a process as with all personnel 
actions is that it has to be then handed over to HR and GC, and 
at that point if they feel that it's--there is sufficient 
grounds to warrant further action, then the process--the entire 
matter goes to the deciding official, who is a neutral third 
party.
    Mr. Beyer. Well, let me simplify. Does it seem to you in 
retrospect that it's an overreaction to fire somebody for 
advocating for a program that she spent perhaps 14 years of her 
life working on?
    Dr. Weatherwax. So I believe that the proposal to dismiss 
Dr. Metting enumerated a number of issues, and some of those 
issues obviously--there are a number of those issues which are 
not related at all to the briefing. And so I think that that 
was something then that the process had to look at, and that's 
what the deciding official was viewing. And so I feel it's not 
my position to make the determination of what course of action 
should be taken on something that is so serious, and so we 
relied on HR to advise us.
    Mr. Beyer. So who was the deciding official?
    Dr. Weatherwax. In this case the deciding official was Dr. 
Steve Binkley. He's another Associate Director in the Office of 
Science. He manages the Advanced Scientific Computing Research 
Office.
    Mr. Beyer. Thank you. Dr. Metting, prior to October 2014, 
had you ever been disciplined or reprimanded by your 
supervisors at DOE?
    Dr. Metting. Mr. Congressman, actually never. I have never 
had anything written against me or had any disciplinary action 
neither at the--at--as a fed or----
    Mr. Beyer. So was the first time in your career then that 
any supervisor had sought to reprimand or punish you?
    Dr. Metting. Oh, yes. That's the first time. I was shocked.
    Mr. Beyer. Do you feel your actions immediately after the 
briefing, that heated exchange, were appropriate?
    Dr. Metting. The heated exchange was in response to what 
they were saying, and after Dr. Anderson had raised his voice 
and then we--it was--there was actually some scientific content 
there. We were actually talking about the use of the--you know, 
of science in BER, so it was under the rubric of a scientific 
exchange after everyone was gone in the privacy of the--of BER 
really.
    And it was--I was--I really actually feel like I was 
goaded, and I did say that I thought the--I thought their 
decision was idiotic on there and I was--I was also not--I 
didn't like the way some of the questions were in the briefing 
itself. The question of--well, actually, Dr. Carruthers brought 
up the fact that DOE does not have regulatory--does not set 
regulatory standards and that was not true. And so I did 
correct that in a--kind of a collegial fashion, and I think 
that was what Dr. Carruthers was reacting to at the--after the 
briefing in the post-briefing.
    Mr. Beyer. All right. Thank you very much, Mr. Chair.
    Chairman Loudermilk. Thank you, Mr. Beyer.
    I now recognize the fine gentleman from the great state of 
Texas, Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman.
    Dr. Weatherwax, you stated in your discussion with Chairman 
Loudermilk that you didn't go there to lobby, you were--you 
didn't go there at all to the meeting but that you felt like 
your intent was to actually impart the scientific facts. And in 
your opening statement, in your testimony you went through a 
litany of scientific facts.
    But let me ask you this. At what point did you become aware 
of the fact that there--this was indeed--there was a lobbying 
attempt going on, to use the term ``subtly yet firmly'' 
dissuade the Senate from filing their companion bill? When did 
you become aware of that?
    Dr. Weatherwax. I can't recall when I became aware of any--
--
    Mr. Weber. Okay. Well, let me help you with that. It----
    Dr. Weatherwax. --lobby.
    Mr. Weber. Let me help you with that. On your email--can we 
put the email back up on the slide?
    [Slide.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Weber. It says--Dr. Carruthers writes--and this is, by 
the way, October the 4th, 2014. That's the exact date. ``I 
think this is an opportunity to subtly yet firmly let the 
Senate know'' blah, blah, blah, blah, blah. So you did become 
aware on October the--you knew at least before October the 4th, 
2014, or on that date that there was this effort going on. Is 
that accurate?
    Dr. Weatherwax. So, yes, I obviously knew----
    Mr. Weber. Okay. Well, let me move on.
    Dr. Weatherwax. But I don't see the word ``lobby.''
    Mr. Weber. Let me move on. Well, to let the Senate firmly 
know, I mean that is the definition, as our Chairman pointed 
out. Dr. Metting had said she--in the pre-briefing she had been 
informed of some things. Did you attend any kind of pre-
briefing?
    Dr. Weatherwax. No.
    Mr. Weber. Did you have emails about the pre-briefing?
    Dr. Weatherwax. I might have been copied on them, but I 
don't recall actually engaging----
    Mr. Weber. So if we sent you a request for more emails 
about this briefing, you could find this for us?
    Dr. Weatherwax. Of course. If you inquired about any 
emails, we would provide them.
    Mr. Weber. Okay. Well, let me do it this way then. Why was 
it thought that Dr. Anderson was better on staying on message 
in this particular instance? Do you have any knowledge of that, 
email written communication as to why Dr. Anderson needed to be 
chosen?
    Dr. Weatherwax. So typically, when we have briefings to 
Congressional staff, it is the Division Director who usually 
attends. And so in this case the Division Director is more 
experienced.
    Mr. Weber. Okay. That's what I need. So if he's more--and 
if he can stay on message, particularly if the message is to 
subtly yet firmly--to use the email's terminology--basically 
lobby the Senate against filing the companion bill, he was the 
logical choice?
    Dr. Weatherwax. So he's the appropriate choice to convey 
what our program priorities are.
    Mr. Weber. Okay. It's my understanding committee staff 
meets with technical experts all the time. Our gentlemen over 
here on the other side of the aisle said it was unusual or the 
Democrats weren't--but I'm sure that they've met with 
committee--their staff has met with technical experts, too. In 
your opinion is Congress entitled to the opinion of experts or 
just the ones that maybe Dr. Todd Anderson and the others in 
this instance agree with? Are we entitled to the opinions of 
experts or just the ones that you all agree with?
    Dr. Weatherwax. Congress is entitled to what they ask for.
    Mr. Weber. Okay. So you would agree with me, then, that 
this lobbying effort--apparent lobbying effort to subtly yet 
firmly dissuade the Senate was inappropriate?
    Dr. Weatherwax. I don't believe that's what my statement 
says.
    Mr. Weber. Well, I wasn't asking you about your statement, 
Dr. Weatherwax. I'm asking you about what occurred in the email 
and your obvious apparent attempt to convince the Senate--
dissuade them from not filing their companion bill. That is 
lobbying in its truest form. Do you think that's inappropriate?
    Dr. Weatherwax. So since I never actually said that Dr. 
Anderson should lobby, his job is to provide----
    Mr. Weber. But that's--I didn't ask--that's not my 
question. My question is this attempt to subtly yet firmly 
influence the Senate, is that not improper to you? Yes or no?
    Dr. Weatherwax. Dr. Anderson was there to convey the 
overall program priorities.
    Mr. Weber. You're not going to answer the question. I'm 
going to move on.
    Dr. Weatherwax, it appears that you and other DOE officials 
wanted to ensure that Congress would not receive information 
about the Low Dose Radiation Program in an attempt to prevent 
legislation, and thus, that's the subject hearing matter for 
this hearing. Is that accurate to say? It at least appears that 
you all wanted to dissuade this Congress from getting--Senate 
particularly from getting that information. Would you agree 
that it appears that way?
    Dr. Weatherwax. The Senate--if the Senate asked us to 
provide information, we provided the briefing.
    Mr. Weber. Well, according to this, you have to have 
someone staying on message to subtly yet firmly let the Senate 
know. You did read that in the email, I take--you do read your 
emails?
    Dr. Weatherwax. Yes, sir, I do.
    Mr. Weber. Okay. That did not raise a red flag for you?
    Dr. Weatherwax. If the intent is to provide information 
about the science, we did not interfere with that whatsoever.
    Mr. Weber. All right. Let me do it this way real quick. On 
your testimony--you referred to your testimony on page one. You 
say competitive funding on their BER--I'm going from memory 
now--programs. Was is so competitive that it seemed to justify 
an attempt to lobby the Senate not to file a companion bill and 
in order to direct that funding that Congress was seeking to 
establish? Is it that competitive?
    Dr. Weatherwax. It is a very highly competitive funding----
    Mr. Weber. So it sounds like that you all might have 
thought it was justifiable. I get that. And then on page three 
you go into the technical stuff and you say that a lot of the 
things that you all do is to ``provide an analysis'' and then 
you list some groups that can draw their own conclusions. And I 
won't go through it and bore you. It's on page three if you 
want to read it.
    So my question is should Congress be allowed to draw 
conclusions as well?
    Dr. Weatherwax. Of course.
    Mr. Weber. So you admit that. And so--but you don't say 
that the attempt to subtly yet firmly dissuade the Senate was a 
contravention of that idea that they can draw their own 
conclusions?
    Dr. Weatherwax. No.
    Mr. Weber. Wow. Okay. Very good. Let me go to you very 
quickly, Dr. Metting. You said that somebody was your boss. 
``Todd Anderson is my manager.'' Is that still true today?
    Dr. Metting. Well, he's not supervising me today. I'll just 
say that I'm still a member on--of BER in Todd's--in Dr. 
Anderson's division----
    Mr. Weber. Okay.
    Dr. Metting. --but I am on detail with the Office of 
Environment, Health, and Safety.
    Mr. Weber. Okay. And you still as of this date have not 
been able--allowed to get your personal effects back?
    Dr. Metting. No, not at all. When I--the second day after I 
got back--actually finally got back to DOE I asked--I called up 
BER. I was calling Kathy Holmes, Dr. Weatherwax's admin person, 
to see if I could go--come in finally and get my things.
    Mr. Weber. Okay. And I don't mean to pry but do you have 
grandchildren?
    Dr. Metting. Yes, I do.
    Mr. Weber. Were there pictures of your grandchildren 
included in that?
    Dr. Metting. There could have been some pictures. There 
could have been so----
    Mr. Weber. Yes. Yes. Okay. So you mentioned that somebody 
was seen pushing a dumpster into your office to get rid of this 
stuff. And who was that?
    Dr. Metting. I'm sorry, that--I have to admit it's hearsay 
but I have the email from a colleague----
    Mr. Weber. Okay.
    Dr. Metting. --in BER who watched my Associate Director 
actually personally pushing a dumpster----
    Mr. Weber. Is it the norm that they push around these 
dumpsters and do these kinds of things?
    Dr. Metting. I have never heard of such a thing.
    Mr. Weber. No? Okay. Thank you, I yield back, Mr. Chairman.
    Chairman Loudermilk. I thank the gentleman from Texas.
    I find it very interesting that the statement was that it 
was appropriate for Dr. Anderson to brief Congressional staff, 
but the DOE did not find it appropriate for Dr. Anderson to be 
here for the Full Committee.
    At this point I'd like to recognize the gentleman from 
California, Mr. Rohrabacher, five minutes.
    Mr. Rohrabacher. Thank you very much. And so you do have 
grandchildren? You know, I have children and I got married 
later on in life and one of my daughters has had some health 
problems. And I just want you to know that this research on 
low-dose radiation is vital to a lot of people's grandchildren 
and children, including my daughter. And I thank you for your 
dedication to finding out about this issue because it is just 
essential for the health of so many people. And thank you very 
much for--my daughter had leukemia so we know what that's 
about.
    And I am very, very honored and pleased that we have 
someone like yourself that is going to withstand pressure to go 
beyond your scientific responsibilities but to basically try to 
achieve a political end, meaning that they--trying to stop 
someone from achieving a political end by compromising your 
scientific commitment because that's what it sounds like to me.
    And what this whole thing sounds like, Mr. Chairman, to me 
is that what we have here is an example of where scientists are 
feeling, at least in the Department of Energy and this Office 
of Science are feeling that they have to go in a certain 
direction in order to placate the--basically the priority of 
the Administration and--which obviously did not--was not 
holding low-dose radiation research as a priority.
    I am a cosponsor of the legislation that would have 
basically formalized that the money being spent--this money 
that's being spent be spent there in the Department of Science 
on low-dose radiation research.
    Dr. Weatherwax, could you tell me, do you agree that those 
of us who are elected officials have the right to have those 
kind of--set those type of priorities with the spending--with 
money that's being spent on federal research?
    Dr. Weatherwax. Congress certainly has the right for----
    Mr. Rohrabacher. Right. So we have the right----
    Dr. Weatherwax. --generating legislation.
    Mr. Rohrabacher. And so we do and it's recognized, yet we 
have someone here who has dedicated her life to a specific 
research area that is being talked about now and she is being 
given direction beforehand as what direction her answers should 
be to the people who constitutionally have responsibility of 
making the decision.
    This type of--you know we hear all the time from our 
colleagues on the other side of the aisle that we because we 
have doubts about manmade CO<INF>2</INF> warming the planet 
that we are politicizing science, and I will have to tell you 
my feeling here is what we've got is an example of politicizing 
science. Someone there in the Department in your Office of 
Science, although not a political appointee, feels compelled to 
try to placate the rest of the Department of Energy's 
commitment to global warming as being a manmade situation that 
they're going to--and that goes all the way down that--what I 
call fanaticism on the global warming issue is being felt the 
effects of that all the way down to this very honorable 
scientist who spent 14 years of her life trying to do something 
that would be important for her grandchildren and my children 
and children all over the United States.
    This is--and I realize that you're trying to be as honest 
with us as you can, but it also--quite frankly, your answers 
indicate to me that there's a lack of willingness to take on 
other people in the Department of Energy who would be upset if 
you said anything to back her up.
    And, Mr. Chairman, this type of politicization has impacts 
not only in our responsibility because what we're talking about 
now today is our responsibility as elected people in a 
democracy, the people elect someone to make major decisions as 
to how money will be spent. Not only does it undermine 
democracy, but in the end it hurts people. In the end this 
research, which we believed was vital, much more vital than 
proving that CO<INF>2</INF> causes the earth to get warm, that 
we felt that that money should go to low-dose radiation 
research. And instead, someone in the Department of Science 
tried to pressure her so that we couldn't back up that concept 
that we have, that that scientific investigation is more 
important than spending it on manmade global warming.
    So with that said, I thank you, Mr. Chairman, for this 
hearing, and I would like to compliment Dr. Metting for your 
courage, for your willingness to say the truth as you see it 
which is what all science has to be. And undermining that and 
having someone trying to tell you what you should emphasize and 
shouldn't emphasize in order to obtain a political goal, which 
is basically to influence the decision-makers who are elected 
to make the decision, you showed great courage and great 
patriotism. Thank you very much for being with us today.
    Dr. Metting. Thank you, Mr. Congressman.
    Mr. Weber. [Presiding.] The Chair now recognizes 
Congressman Randy Neugebauer from also the great State of 
Texas.
    Mr. Neugebauer. Well, thank you, Chairman.
    Dr. Weatherwax, you're a scientist, is that correct?
    Dr. Weatherwax. That's correct.
    Mr. Neugebauer. At the Department of Energy?
    Dr. Weatherwax. Yes.
    Mr. Neugebauer. And so I think your title is Associate 
Director of Science for Biological and Environmental Research, 
is that correct?
    Dr. Weatherwax. That's correct.
    Mr. Neugebauer. Yes. So when you're doing research or 
investigations, are the facts important?
    Dr. Weatherwax. Yes.
    Mr. Neugebauer. Why are they important?
    Dr. Weatherwax. So scientific research is all predicated on 
obtaining facts. Facts obtained from experiments, often using 
controlled hypotheses, and collecting the facts helps us to 
refine our theories and then suggests further experiments.
    Mr. Neugebauer. So what if you were working on a scientific 
project and you were evaluating some previous projects that had 
been done, scientific research, and someone was directing you 
as to what science that you were able to view and precluded you 
from looking at, say, other experiments that had been done in 
the same area? Would that be productive to your work?
    Dr. Weatherwax. I don't think that typically that's how 
science is done so----
    Mr. Neugebauer. Well, no, but I mean answer the question. 
I'm not asking your opinion on how you think it's a done or 
not. Would that be productive to your scientific research?
    Dr. Weatherwax. No.
    Mr. Neugebauer. No. So if you're a Member of the United 
States Congress and you're trying to evaluate how we spend the 
taxpayers' money and what are the things that are in the best 
interest of the American people, wouldn't you think the facts 
are important?
    Dr. Weatherwax. Yes.
    Mr. Neugebauer. Now, you know, do you think your opinion on 
an issue should influence the facts that you're willing to 
share with me?
    Dr. Weatherwax. I--if you ask me for a fact, then I'll 
provide it. I don't think my opinion----
    Mr. Neugebauer. Yes. Yes.
    Dr. Weatherwax. --matters.
    Mr. Neugebauer. Well, that's what we asked for, and I think 
that's what we expect. And I think what members of this 
committee find very troubling is that there was an effort here 
that we had an oversight committee trying to, you know, do its 
job and then we had people within the Administration--and 
what's more troubling it's--I expect it from the 
Administration, but from professional scientists I don't expect 
that.
    And I think what's discouraging here is that we had 
professional scientists trying to filter or influence the 
information and how that was presented to the United States 
Congress. And, you know, I find that distasteful, and I also 
find it very unprofessional that you, from the scientific 
community, don't rely on the facts. It's important to have the 
facts because we're counting on you to--both in your research 
and in your investigations to make sure that, you know, we are 
doing everything we can to keep the American people healthy and 
safe and that this kind of behavior is counterproductive to 
that.
    And so I would say that I'm hopeful that this is not a 
pervasive culture within the Department of Energy or any other 
department of the United States Government. With that, Mr. 
Chairman, I yield back.
    Mr. Weber. I thank the gentleman.
    The gentlelady from California is now recognized for five 
minutes.
    Ms. Lofgren. Well, thank you, Mr. Chairman. And I'm sorry 
I'm late. The Judiciary Committee is having a hearing at the 
exact same time.
    You know, I want to explore how we can improve our 
scientific integrity policy at the agency. As you know, I'm 
sure the Union of Concerned Scientists has made an observation 
that the policy is rather short and it's just three pages. And 
although I think it hits all the high points, it--compared to 
the scientific integrity outlines of some other agencies, you 
know, it's on the short side.
    And I'm wondering how we might move forward and use this 
observation as a way to further improve the agency and whether 
you have comments on that, either one of you?
    Dr. Weatherwax. I can't comment on how the Department has 
developed the scientific integrity policy, but I can certainly 
say that as a scientist and the daughter of a scientist who 
worked on the space missions, I certainly agree that scientific 
integrity is important.
    Dr. Metting. I'm just a scientist. I'm not a--in the 
management chain, but I would think that management could do 
better at Department of Energy.
    Ms. Lofgren. All right. So it's not something that you as 
scientists would necessarily want to weigh in on. I just think, 
you know, the need--when you get to scientific integrity or any 
integrity policies, it's important that they be robust, but 
it's also important that they be communicated to--not only to 
management but to every person in the institution so that 
everybody knows what the rules are.
    And I think that, you know, I have great regard for the 
current Secretary of Energy. I mean, he's a fabulous scientist 
and individual. Steve Chu was--and also, I mean, a Nobel Prize-
winner, I mean, was the Energy Secretary when the current 
integrity policy was adopted. And I think that to ask--well, I 
don't know if there's time left in this Administration, but to 
ask that this be reviewed and amplified would be a good outcome 
from this hearing, a productive outcome rather than just a 
negative one.
    And I'm hoping that we might--I'll--if I could, I would ask 
unanimous consent that we put into the record the analysis 
undertaken. It's entitled ``Federal Agency Scientific Integrity 
Policies, A Comparative Analysis'' and it's done by the Union 
of Concerned Scientists. It's dated March 2013, but I think 
it's still pertinent and would be helpful to be part of the 
record.
    Mr. Weber. Without objection.
    [The information appears in Appendix I]
    Ms. Lofgren. And with that, Mr. Chairman, I think my time 
is nearly expired and I'd be happy to yield back.
    Mr. Weber. I thank the gentlelady.
    The gentleman from Illinois is recognized.
    Mr. Hultgren. Thank you, Chairman. Thank you both for being 
here.
    Mr. Chairman, at this time I'd also ask unanimous consent 
to be able to insert into the record three different letters. 
The first is dated March 18, 2013. It's from a group of 
researchers in Madison, including Columbia University, which 
states ``Our limited understanding of low-dose health risks 
seriously impairs the nation's decision-making capabilities 
both in the short- and long-term after a large-scale 
radiological event.''
    The next--I'd also like to include letters from the 
American College of Radiology and the Health Physics Society 
supporting my legislation, which passed the House in January 
2015. This bill is H.R. 35, the Low Dose Radiation Research Act 
of 2015. This is another quote from the Health Physics Society 
letter. ``A greater understanding of the effects of low-dose 
radiation on humans will not only add to our body of knowledge 
on the subject but it would also enable us to make better 
decisions on what are the proper levels, procedures, and 
protections needed when our citizens are subject to exposure to 
sources of low-dose radiation.''
    So I'd ask for unanimous consent to be able to enter those 
into the record.
    Mr. Weber. Without objection, so ordered.
    [The information appears in Appendix I]
    Mr. Hultgren. Thank you. Questions--if I could direct 
initial questions, Dr. Weatherwax, if I could direct it to you. 
Was it your intention and the intention of other such as Dr. 
Anderson, Dr. Carruthers, and Dr. Huerta to attempt to prevent 
the benefits of low-dose radiation research from being 
presented to Congress?
    Dr. Weatherwax. No.
    Mr. Hultgren. Dr. Weatherwax, if Dr. Metting provided that 
information in response to questions from Congressional staff, 
then why was she removed from her position?
    Dr. Weatherwax. So my understanding is that the proposal to 
dismiss Dr. Metting details all of the issues, and those were 
the issues that were actually reviewed by general counsel and 
human resources, and the procedures were followed. The deciding 
official is the one who viewed the entirety of all of those 
issues and made the decision.
    Mr. Hultgren. Dr. Weatherwax, is it the role of the federal 
agency officials to prevent information from being accurately 
presented to Congress, as it was in this case?
    Dr. Weatherwax. I don't believe that the federal government 
inaccurately presented information in this case.
    Mr. Hultgren. Well, clearly, there was a slide that was 
removed and I guess--I think I have a slide that we can put up.
    [Slide.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Mr. Hultgren. Dr. Weatherwax, this is an email from Dr. 
Anderson to Dr. Metting, which you were copied. It appears to 
suggest that Dr. Metting remove slide 4 from the briefing 
documents, a slide that lists all the federal agency uses for 
low-dose radiation research. Isn't that precisely the 
information that Congress would want to know in a briefing 
about the program?
    Dr. Weatherwax. So I cannot comment as to why Dr. Anderson 
recommended removal of a particular element within a briefing. 
It could have been for brevity. I can't actually speak to why 
he suggested removal.
    Mr. Hultgren. Yes, I wish Dr. Anderson again were here to 
be able to respond to that directly.
    Also, I guess I think I've got another slide.
    [Slide.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. Hultgren. There it is, the slide that notes the 
beneficial nature of low-dose radiation research for Homeland 
Security and the Department of Defense in responding to 
radiological attacks.
    Dr. Metting, in your scientific opinion could the research 
developed by the Low Dose Radiation Research Program benefit 
federal emergency response agencies?
    Dr. Metting. Yes, very much so in setting evacuation 
standards, the levels at which we need to address different 
types of emergencies, yes.
    Mr. Hultgren. Again, it's a great disappointment. I do look 
towards these hearings and the requests that we make to 
agencies as our ability to be able to be educated on what is 
happening, how funding ought to happen, what important programs 
ought to continue to be funded. And in this case it seems like 
we were not given that opportunity. In fact, very directly 
certain things were excluded from our ability to see.
    Dr. Metting, last question. Is this the sort of information 
that you think DOE management preferred to keep from committee 
staff during the briefing? And did the DOE management tell you 
to stick to talking points that excluded the sort of 
information?
    Dr. Metting. Yes, it did.
    Mr. Hultgren. Again, thank you so much. This is disturbing. 
This is frustrating. And I hope we can continue to get to the 
bottom of this and make sure that this never happens again but 
also that there is justice in this.
    So with that, I will yield back. Thank you, Chairman.
    Mr. Weber. I thank the gentleman.
    The gentlelady from Virginia is recognized. No? You're 
good? Okay.
    All right. The gentleman from--on my right here from 
Virginia, which is not often you're on my right. He wants to do 
another round so we will do that.
    Let me start by simply saying--I'll tell you what. You go.
    Mr. Beyer. You sure?
    Mr. Weber. You bet you. You go.
    Mr. Beyer. Thank you, Mr. Chairman.
    I'd first like to respond to my friend Mr. Rohrabacher from 
California who talked about the fanaticism of climate change 
science and just point out that 97 percent of the scientists in 
the world--China, India, Europe, et cetera--believe often 
reluctantly that climate change is real and that it's manmade 
and that we represent an enormous threat to mankind. This is 
not fanaticism, nor is it politics. It's just what the science 
is.
    I know there are three percent that agree that it's--
believe it's not real. Two good friends of mine sent me pieces 
that believe that climate change is not manmade or there's 
nothing we can do about it. I don't think they're fanatics 
either. These are--we should let the science be what the 
science is and then together try to make good decisions about 
how to move forward.
    Dr. Weatherwax, is it the responsibility of the Department 
of Energy to communicate the Administration's science 
priorities to Congress? And would--it seems like we got off on 
the wrong foot when someone accused of Dr. Metting of lobbying, 
which then led to lots of accusations of you and Dr. Anderson 
of lobbying. Isn't this more just the responsibility to 
communicate what the executive branch believes the priority 
should be and then the legislative branch can do what they want 
to do?
    Dr. Weatherwax. Yes.
    Mr. Beyer. Thank you. Let me ask this, the same question of 
both of you. Dr. Weatherwax, is there obviously more to learn 
from the Low Dose Radiation Program after a quarter billion 
dollars' worth of research or have we had a plateau period 
where we know most of what we think we need to know?
    Dr. Weatherwax. So I believe that, as with many scientific 
areas, always more can be gained. However, in this case the 
program's priorities were certainly shifting more towards large 
epidemiological studies, which is studies of humans and 
populations and their exposure. And so those kinds of studies 
are probably the future of where this research is--field is 
going, and I believe that that type of research is ongoing. We 
are continuing to support a study, and those studies are being 
done by entities such as the National Cancer Institute.
    Mr. Beyer. So, Dr. Metting, the same question. Do you 
believe that the research had plateaued after a quarter billion 
dollars or did you feel you were on the cusp of dramatic new 
insights?
    Dr. Metting. Actually, I don't believe there was a plateau 
at all. We were--we had basically gone through all of what we 
could do with cell culture and we were going into whole systems 
biology. And when--once we started moving into that, what we 
did--what we realized is that for very low doses there's really 
not a cancer aspect to it. There is real interesting science 
that is asking what is actually--what does the low-dose 
actually do. And so we were looking at adaptive responses, we 
were looking at really excellent--like the metabolic shift that 
occurs at very low doses that actually triggers an adaptive 
response.
    And it has very exciting directions to go because low 
doses--they affect your immune surveillance and at the very low 
doses it's much different from the types of mechanisms that 
occur at very high doses.
    And I'm--I agree with Dr. Weatherwax that we need a new way 
to look at the epidemiology. We've been only having the high-
dose epidemiology for so long. Now, we're looking at low-dose 
epidemiology, and that is exactly the type of science that we 
need to compare our new biology to, that the old--the A-bomb 
survivor epidemiologists are still using old biological 
assumptions. We have a whole new set of assumptions. The low-
dose area is getting very exciting.
    Mr. Beyer. I'm about to run out of time. I'd like to submit 
for the record, if there's no objection, the Department of 
Energy's response to the Inspector General and the Office of 
Special Counsel regarding the $16 million disclosure where the 
Department of Energy details how that $16 million was spent 
according to the Congressional appropriation if there's no 
objection, Mr. Chair.
    Mr. Weber. Without objection.
    [The information appears in Appendix I]
    Mr. Beyer. And then one last question for you, Dr. Metting. 
Is there anything inappropriate with both you for radiation, 
the low-dose radiation, Dr. Weatherwax, Dr. Todd Anderson, and 
others communicating those understandings to Congress and then 
let Congress authorize and allocate the money it wishes to 
spend in its legislative wisdom? I mean, shouldn't----
    Dr. Metting. I don't----
    Mr. Beyer. Is there a reason why it's bad to have the 
necessary conflict between the Administration's perspective and 
Congress' perspective?
    Dr. Metting. Mr. Congressman--Ranking Member, I really 
don't think there is anything wrong with a conflict. Both sides 
should be looked at. Both sides should be heard but----
    Mr. Beyer. And hopefully the wisdom will emerge, right?
    Dr. Metting. Yes.
    Mr. Beyer. Okay. Thank you, Mr. Chair. I yield back.
    Mr. Weber. I thank the gentleman.
    The Chair from Ohio is recognized.
    Mr. Davidson. Thank you, Mr. Chairman.
    Dr. Weatherwax, I'm curious what is the process like when 
you prepare for meeting for Congress?
    Dr. Weatherwax. So typically, when the request comes in, it 
will come to the Department's Congressional Affairs and they 
will then notify us as to what the request is and direct it to 
the appropriate office. If it's a matter of briefing 
appropriation staffers, then it would be budget-related and 
then the most senior person will typically go, the person has 
who has authority to develop the budget priorities and 
responsibility for justification.
    Mr. Davidson. Okay. So when you come to a hearing before 
Congress, do you have objectives for the meeting?
    Dr. Weatherwax. So this is actually my first meeting with 
Congress, so clearly my objective is just to answer your 
questions.
    Mr. Davidson. Okay. So how--in the Department of Energy 
when you talk about the culture and you talk about--surely 
you've prepared others to come and give testimony before 
Congress. What's considered success? What's that like in the--
you know, hey, you did a good job or you didn't do a good job?
    Dr. Weatherwax. I think if Congress is satisfied with the 
information that the Department has provided, then that would 
be a successful outcome.
    Mr. Davidson. Why then was Dr. Metting's testimony before 
Congressional staffers not viewed as success?
    Dr. Weatherwax. I don't believe that we actually made any 
kind of decision about success or no success after that 
particular briefing. I believe that the decision to--the 
proposal to remove, as I said, included other aspects that were 
not related to the specific briefing to Congress.
    Mr. Davidson. Thank you. Dr. Metting, after your October 16 
briefing were you officially removed from your position at the 
Department of Energy?
    Dr. Metting. Yes, I was.
    Mr. Davidson. Without objection, I'd like to share an email 
exchange between Dr. Weatherwax and Dr. Anderson. They appear 
to be debating whether to provide Dr. Metting with an official 
notice of proposed removal from federal service on the day of 
the office holiday party. So this was December.
    Dr. Metting, when were you informed about your dismissal 
from the Department, and could you please elaborate on how that 
happened?
    Mr. Weber. Without objection, so ordered. You wanted that 
in the record?
    Mr. Davidson. Thank you.
    [Slide.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
    Dr. Metting. Yes, Mr. Congressman. I--okay. So it had been 
very tense, you know, since the October 16 and then when I was 
taken off of my duties as managing the Low Dose Program. And I 
had talked to my union representative, and everyone knew I was 
a little upset, but then there wasn't anyone who would really--
Dr. Anderson, Dr. Weatherwax would not talk to me about the 
subject so it was very tense.
    The morning of the--of December 4 we had a big potluck. 
It's a lot of fun. We're out in Germantown so we can bring 
large amounts of food. And I was tasked--or I volunteered to 
bring the turkey dressing, the mashed potatoes and gravy, and 
we had our party. And then directly after the party I was 
informed that there would be a personnel action in 2 hours and 
that--or something like that. I don't really remember the exact 
thing I was so shocked, and that you should probably bring your 
union representative with you at that time.
    Mr. Davidson. Was this consistent with the culture that 
something like this would happen or was this kind of a new 
trend or new event, new single data point in the culture?
    Dr. Metting. Oh, you mean the personnel----
    Mr. Davidson. Yes, just the--you know, you're coming right 
off of a holiday party, you're coming off of testimony where 
you gave----
    Dr. Metting. It was shocking.
    Mr. Davidson. --testimony?
    Dr. Metting. It was shocking and it was out of the ordinary 
for me. I mean, I've never, ever had anything even against 
anything that I've done. I've always had very fully successful 
program reviews.
    Mr. Davidson. Thank you. Dr. Weatherwax, in your experience 
at the Department of Energy is it general practice for an 
agency scientist to be told what they can and cannot say during 
their Congressional testimony?
    Dr. Weatherwax. No.
    Mr. Davidson. Have you ever been instructed to censor 
scientific opinions when communicating with Congress or other 
agencies?
    Dr. Weatherwax. No.
    Mr. Davidson. So is it your opinion that this was an 
outlier of an event with Dr. Metting?
    Dr. Weatherwax. We never told Dr. Metting to--we never 
attempted to censor scientific content.
    Mr. Davidson. Okay. It does appear that you--you were 
dissatisfied with the way the conversation went and took 
action, and it seems to have potentially had a stifling effect.
    So my time is expired. Thank you.
    Mr. Weber. I thank the gentleman for yielding back.
    Dr. Weatherwax, in your exchange just--the last exchange 
with the gentleman from Virginia, he talked about an opinion on 
climate change and it's okay if the Administration has an 
opinion and you think they ought to be free--he asked you 
didn't you think they ought to be free to pursue what they 
thought was important. Do you remember that exchange?
    Dr. Weatherwax. Yes.
    Mr. Weber. Okay. So the gentleman from--well, let me do it 
this way. Just hold that thought. Dr. Metting, did you feel 
attacked after that meeting and obviously leading up to the 
party you were talking about?
    Dr. Metting. After the briefing?
    Mr. Weber. Yes.
    Dr. Metting. I was completely attacked. And at the time it 
felt like it was--you know, it was a surprise and it was----
    Mr. Weber. Okay.
    Dr. Metting. --unforeseen.
    Mr. Weber. Well, I apologize to you for that. And from what 
I know, that should not have occurred and you should not have 
to endure that. And I hope you get the pictures, if there are 
some, of your grandchildren back.
    But suffice it to say that I agree with an earlier comment. 
Thank you for coming up here because more--as important is the 
fact that the process has been attacked, and I think we're 
seeing that today.
    Now, Dr. Weatherwax, we talked earlier and you--I asked you 
a couple questions about the lobbying intent and you said you 
didn't have an opinion and you weren't sure that was lobbying, 
but we have another email. And I use the word subtle, you know, 
to keep the Senate from filing a bill. Can we get that email up 
on the screen? Can we get that one up on the screen? The email 
I had originally, yes. There you go.
    [Slide.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Mr. Weber. So, you know, I talked about the subtly yet 
firmly, which is the third bullet point, but if you go up to 
the second--or fourth bullet point, but if you go up to the 
second bullet point, it says ``If the goal is to squash the 
prospects of Senate support for the HSST.'' So I want to come 
back and say to you now you've expressed an opinion about 
climate change and what the Administration ought to be free to 
do or not do. Now do you also have an opinion that the goal to 
squash the prospects of Senate is inappropriate?
    Dr. Weatherwax. Dr. Anderson is responsible for conveying 
the program----
    Mr. Weber. But I'm not asking about--I'm asking you, Dr. 
Weatherwax, do you have--you expressed an opinion with 
Congressman Beyer about whether or not we disagree on global 
warming. We can get into that later. So there's discussion 
about that. Do you have an opinion that the goal to squash the 
Senate action is inappropriate? The email--now, this email came 
to you, I will remind you.
    Dr. Weatherwax. That's correct. The email came----
    Mr. Weber. Okay.
    Dr. Weatherwax. --to me.
    Mr. Weber. So did you not have an opinion at that point 
that this might not be the best policy of this department?
    Dr. Weatherwax. So my interpretation of that comment was 
that Todd's job was to provide the broad overall context----
    Mr. Weber. Okay.
    Dr. Weatherwax. --for how the program priorities within 
this area of----
    Mr. Weber. Yes, it's not about his--your interpretation of 
him. It's about the attempt to squash--it clearly says squash 
it. You're a scientist. You have a Ph.D. You know what squash 
is. Do you have an opinion on that?
    Dr. Weatherwax. I guess----
    Mr. Weber. You're just not going to--you're not going to 
offer an opinion on that?
    Dr. Weatherwax. I think I did not interpret that comment as 
squashing any scientific content.
    Mr. Weber. Okay. Well, then, let's--let me move on. So 
Congressman Beyer and yourself had the exchange about whether 
or not you agree with global warming. I think you said the 
fantasism----
    Mr. Beyer. Fanaticism.
    Mr. Weber. There we go. Thank you. I have to get--according 
to Mr. Rohrabacher, yes. But the fanaticism in their opinion--
and there's been some Attorneys General, as you're probably 
aware from reading the news accounts, that have gone after 
ExxonMobil because in their opinion they think they've 
suppressed some things. But isn't the fanaticism of suppressing 
what a scientist can say in a Congressional committee meeting 
as dangerous as the purported climate change no matter where 
you fall on that side of--isn't that fanaticism just as 
dangerous? Do you have an opinion about that?
    Dr. Weatherwax. I don't see that Dr. Anderson was squashing 
the conveying of science.
    Mr. Weber. It's interesting that you bring him back up 
because I was asking about a broad overall perspective about 
the fanaticism of suppressing a scientist from testifying 
before Congress committee staffers. That's just as bad as the 
purported fanaticism of denying global warming. Wouldn't you 
say that's just as bad?
    Dr. Weatherwax. I don't believe that we ever squashed a 
scientist presenting scientific views to Congress.
    Mr. Weber. All right. Well, let's do it this way. There's 
another--there's actually an excerpt from Dr. Todd Anderson in 
the transcribed interview that the question--and it's up on the 
screen that says, question, ``Is President Obama's Climate 
Action Plan a priority for the Department of Energy?'' Can you 
see the answer there? Are you able to read that? What does it 
say?
    Dr. Weatherwax. The answer that Dr. Anderson gave is yes--
--
    Mr. Weber. Yes, it is. And what's that second question? Can 
you read that for us?
    Dr. Weatherwax. The second question says, ``And is that a 
greater priority than the Low Dose Radiation Program?''
    Mr. Weber. And he says, ``To the extent that we align our 
basic research efforts toward that goal, yes.'' So clearly 
they're prioritizing, right? Now, the question is this. This is 
testimony provided by Dr. Todd Anderson in a transcribed 
interview with committee staff. Dr. Anderson asserts, if you're 
following his question-and-answer here, ``Research that 
benefits the President's Climate Action Plan is a higher 
priority than low-dose radiation research.'' So here's my 
question. Is the DOE ending the Low Dose Radiation Research 
Program to divert funds--and I would say to subtly yet firmly 
encourage--if that's a better word for you--the Senate to 
divert funds towards research in furtherance of the Climate 
Action Plan? Does that look like that to you?
    Dr. Weatherwax. No.
    Mr. Weber. It doesn't? Okay. Well, then, Dr. Weatherwax, 
the DOE fired an employee--in your exchange with Mr. Davidson 
of Ohio, he said, did you think that the meeting was a success 
or a failure? She got fired because of it, so obviously 
somebody thought that what occurred in the meeting was bad. Do 
you have opinion on that?
    Dr. Weatherwax. I believe that the justification for 
dismissal was outlined in the proposing documents and that 
there were issues greater than----
    Mr. Weber. So----
    Dr. Weatherwax. --what transpired during the briefing.
    Mr. Weber. So the operation was a success but the patient 
died. Okay. So you don't have an opinion that that was a bad 
meeting.
    Is the Department of Energy in this process sending a 
message to research scientists that they better somehow tow a 
political party--a particular--I'll do it that way--party line? 
And if they don't agree, if they express a difference of 
opinion, it is in peril of their careers. Would you agree with 
that?
    Dr. Weatherwax. No.
    Mr. Weber. You don't agree with that? Okay. Last question, 
that's for you, Dr. Weatherwax. In your opinion is it okay for 
the Department of Energy to lobby the Senate to firmly but 
subtly prevent them from filing a bill?
    Dr. Weatherwax. If the Department of Energy actually 
lobbied for something, then I--you know, I don't believe that 
that's what happened.
    Mr. Weber. Okay. And so to follow up the last email, the 
goal to squash the Senate prospects is inappropriate, of filing 
that bill?
    Dr. Weatherwax. I think that the goal is to convey the 
broader context of how we set our budget priorities.
    Mr. Weber. Well, there certainly seems to be some control 
there. Dr. Weatherwax, I appreciate your testimony but it just 
looks like you're more focused on, I guess, the science--your 
part of the science research instead of the topics here today 
that would say, look, this is inappropriate.
    There is some inappropriate behavior going on, as one of my 
members over here said earlier, and we want to make sure that 
that stops. And the fact that you don't recognize that and 
won't provide at least an opinion that it was categorically 
inappropriate and that it might need to be a little attitude 
adjustment in the Department of Energy is frightening to me.
    But anyway, I appreciate you being here.
    Dr. Metting, anything you'd like to say before we close?
    Dr. Metting. Mr. Chairman, I think you've done a fabulous 
job at laying out all of the issues.
    Mr. Weber. Well, thank you. How many grandchildren do you 
have?
    Dr. Metting. I do have two grandsons.
    Mr. Weber. Two grandsons. They need a sister.
    Dr. Metting. That's what I'm telling my other son.
    Mr. Weber. Well, thank you both for being here, and this 
hearing is adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record




                 Statement submitted by Full Committee
                          Chairman Lamar Smith
                          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 Statement submitted by Full Committee
                  Ranking Member Eddie Bernice Johnson
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            Document Submitted by Representative Zoe Lofgren
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
          Documents submitted by Representative Randy Hultgren
          
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            Document submitted by Representative Don S.Beyer
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              Report submitted by Chairman Lamar S. Smith
              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



            Document submitted by Representative Randy Weber
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
